APPENDIX

APPENDIX A

United States Court of Appeals
For the First Circuit
No. 19-1739
UNITED STATES,
Plaintiff - Appellee,
v.
STATE OF RHODE ISLAND DEPARTMENT OF CORRECTIONS;
STATE OF RHODE ISLAND,
Defendants - Appellees.
-------------------------------------------------------------------------------------JAYSON BADILLO,
Claimant - Appellant.

Before
Lynch, Kayatta and Barron, Circuit Judges.

JUDGMENT
Entered: February 22, 2021
The United States, the State of Rhode Island, and the
Rhode Island Department of Corrections ("RIDOC") move for
summary disposition of this appeal from a district court order
denying appellant Jayson Badillo's motion to intervene in an
action the United States brought against Rhode Island and
RIDOC under Section 707(a) of Title VII of the Civil Rights
Act of 1964. See 42 U.S.C. ยง 2000e-6. On appeal, Badillo
challenges only the district court's denial of his motion to
intervene as of right under Fed. R. Civ. P. 24(a); he has

presented no argument regarding the district court's denial of his
alternative request for permissive intervention under Fed.
R. Civ. P. 24(b).
The denial of a motion to intervene is immediately
appealable, R & G Mortg. Corp. v. Federal Home Loan Mortg.
Corp., 584 F.3d 1, 7 (1st Cir. 2009). Both the denial of relief and
the "subsidiary findings regarding timeliness" are reviewed for
abuse of discretion. Negron-Almeda v. Santiago, 528 F.3d 15,
21 (1st Cir. 2008). While the district court's discretion is
"somewhat more constrained" in the case of a motion to
intervene as of right than in the case of a motion for permissive
intervention, it remains "appreciable" and the timeliness
"requirement retains considerable bite." R & G Mortg. Corp.,
584 F.3d at 8.
Appellees argue that the motion to intervene was
properly denied because it was untimely and because Badillo
failed to demonstrate that he had a right to intervene in any
event. Because the threshold question of timeliness is
dispositive, we need not decide whether Badillo has met the
other requirements for intervention as of right.
The timeliness determination is fact-sensitive and
requires consideration of the totality of circumstances. R & G
Mortg. Corp., 584 F.3d at 7. "In evaluating that mosaic, the
status of the litigation at the time of the request for intervention
is 'highly relevant.' As a case progresses toward its ultimate
conclusion, the scrutiny attached to a request for intervention
necessarily intensifies." Id. (citation omitted) (quoting Banco
Popular v. Greenblatt, 964 F.2d 1227, 1230-31 (1st Cir.
1992)). Other factors that inform the timeliness determination
include "(i) the length of time that the putative intervenor knew
or reasonably should have known that his interests were at risk
before he moved to intervene; (ii) the prejudice to existing
parties should intervention be allowed; (iii) the prejudice to
the putative intervenor should intervention be denied; and
(iv) any special circumstances militating for or against
intervention." Id. "But even though multiple factors may
influence the timeliness inquiry, . . . the most important factor is
the length of time that the putative intervenor knew or
reasonably should have known that his interest was imperilled
before he deigned to seek intervention." In re Efron, 746 F.3d
30, 35 (1st Cir. 2014); see Greenblatt, 964 F.2d at 1231; see
also R & G Mortg. Corp., 584 F.3d at 8 ("In the last analysis,
the timeliness inquiry centers on how diligently the putative
intervenor has acted once he has received actual or constructive
notice of the impending threat").
Here, the litigation was at an advanced stage when the

motion to intervene was filed. The settlement agreement had
been approved following a fairness hearing and the individual
awards list was finalized just after Badillo filed this appeal. While
an intervention motion is not necessarily untimely even if it is
filed after judgment has entered, see Tweedle v. State Farm Fire.
& Cas. Co., 527 F.3d 664, 671 (8th Cir. 2008), the extent of
the progress in the litigation typically weighs against
intervention where, as here, the motion is filed after the "litigation
is nearly wrapped up[.]" Id.
Further, the district court supportably found that Badillo
was aware that his interests were at risk in December 2017,
when he received notice of the proposed settlement agreement
and promptly retained counsel and filed objections arguing that
the amount of the proposed settlement fund was insufficient to
fairly compensate potential claimants. Badillo contends that his
seventeen- month delay in moving to intervene was
nevertheless excusable because he reasonably believed the case
was analogous to a class action, and that the procedural
mechanism it provided for objecting would have made
intervention essentially redundant. He maintains that he did not
realize that intervention was necessary to protect his interests
until his first appeal was dismissed for lack of standing based in
part on his failure to move to intervene in the district court. But
ignorance cannot excuse Badillo's delay, particularly since he
was represented by counsel, and even if it could, Badillo does
not explain why, following the November 2018 judgment
dismissing his first appeal, see United States v. Badillo, No. 181462, Judgment (1st Cir. Nov. 7, 2018), in which we noted that
Badillo had already delayed in seeking to intervene, he waited
another six months to file his motion.
Badillo further argues that a presumption of timeliness
should apply to his motion to intervene, no matter how late
it was filed, because he is similar to a non-named class member
seeking to intervene in a class action, and other circuits have
liberally permitted class members' motions to intervene to
challenge consent agreements in civil rights class action cases.
See, e.g., Smith v. Los Angeles Unified Sch. Dist., 830 F.3d
843, 853 (9th Cir. 2016). Badillo made similar arguments in his
previous appeal in support of his claim that he should be
permitted to appeal as a non-party or granted leave to intervene
nunc pro tunc, and we rejected them, finding that Badillo was
not similarly situated to an unnamed class member because he
was not bound by the approval of the settlement agreement and
could have intervened earlier in the district court. See No. 181462, Judgment (1st Cir. Nov. 7, 2018). Badillo's class action
analogy is no more persuasive in the context of this appeal than

it was in the earlier one.
Finally, Badillo argues that the district court abused its
discretion in determining that his motion was untimely without
considering the question of prejudice. But the failure to make
explicit findings as to every factor relevant to the timeliness
determination will not itself amount to an abuse of discretion
if the record is sufficiently developed to allow the findings to
be made on appeal. See Geiger v. Foley Hoag LLP Ret. Plan,
521 F.3d 60, 64 (1st Cir. 2008); Banco Popular de Puerto Rico
v. Greenblatt, 964 F.2d 1227, 1230 (1st Cir. 1992). Moreover,
in the particular circumstances here, where Badillo has been
actively objecting to the settlement since December 2017, had
an earlier appeal dismissed for lack of standing because he
could have but failed to intervene in the district court, and then
waited another six months to seek that relief, the district court
reasonably could have found that delay alone was sufficient to
support a finding that the motion was untimely.
In any case, Badillo's arguments on the issue of prejudice
are not persuasive. As discussed in the context of the earlier
appeal, neither the filing of the Title VII action nor the approval
of the settlement agreement extinguished Badillo's individual
rights. See No. 18-1462, Judgment (1st Cir. Nov. 7, 2018).
Moreover, Badillo's objections to the settlement agreement and
to the individual award he was offered have already been
considered by the district court and rejected, and there is no
reason to think that allowing him to re-raise the same arguments
in the district court as a party would lead to a different outcome
either in the district court or on appeal. Further, it seems clear
that any prejudice Badillo might suffer from being denied the
opportunity to reargue his objections or appeal a further denial
would be outweighed by the prejudice that would be caused
to the parties and other claimants if Badillo were permitted to
challenge an agreement that has been finally approved and
implemented.
In sum, Badillo's claim that the district court abused its
discretion in finding that his motion to intervene was untimely
is meritless, and failure to meet this threshold requirement was
dispositive. No substantial issue for review having been
presented, the motion for summary disposition is granted and
the decision of the district court is affirmed. See 1st Cir. R.
27.0(c).
By the Court:
Maria R. Hamilton, Clerk

APPENDIX B

TEXT ORDER denying [117] Motion to Intervene: Jayson
Badillo's Motion to Intervene, ECF No. 117, is DENIED as
untimely. He had "knowledge of a measurable risk to [his]
rights" when he received notice of the proposed settlement
agreement on December 6, 2017, a full seventeen months
before he moved to intervene. R & G Mortg. Corp. v. Fed.
Home Loan Mortg. Corp., 584 F.3d 1, 7-13 (1st Cir. 2009)
(affirming denial of intervention, under both Rules 24(a)
and 24(b) of the Federal Rules of Civil Procedure, where
movant waited just two and a half months after knowing
its rights were imperiled). Mr. Badillo's arguments will be
considered objections at the upcoming fairness hearing. So
Ordered by Chief Judge William E. Smith on 6/21/2019.
(Jackson, Ryan)

